October 30, 2020

Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142

By Electronic Filing

+1 212 506 5000
orrick.com

Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Idenix Pharmaceuticals LLC et al. v. Gilead Sciences, Inc., No. 20-380

Dear Mr. Harris:
I am counsel of record for the Respondent, Gilead Sciences, Inc., in the abovecaptioned matter. The petition for a writ of certiorari in this case was filed on
September 21, 2020, and this Court called for a response on October 14, 2020. The
response is currently due, without extension, on or before November 16, 2020.
Pursuant to Rule 30.4, Respondent respectfully requests that the time for filing a
response to the petition be extended by 30 days, to December 16, 2020. This is
Respondent’s first request for an extension of time.
Respondent submits this request because of the heavy press of previously set
deadlines in other matters during this period, including a reply in support of a writ
of certiorari in Chavis v. Delaware, No. 20-317, currently due November 16 (an
extension request is anticipated); oral argument in Tri-City and Endor Car and
Driver LLC v. NYC TLC et al., No. 2019-5014 (N.Y. App. Div.), to be presented on
November 24; a reply brief in Twentieth Century Fox Film Corp. et al. v. Netflix,
Inc., No. B304022 (Cal. Ct. App.), due November 24; and a response brief in
Washington Bankers Association v. State of Washington, No. 98760-2 (Wash.), due
December 14.
Respectfully submitted,
/s/ E. Joshua Rosenkranz
E. Joshua Rosenkranz
Counsel for Respondent Gilead Sciences, Inc.
cc: Counsel of Record for Petitioners (via email and U.S. mail)

